<r

£j\ ■ (iAr; — [T)) C
A-l r*'
Cl
Lj; 4:
ifc '''

V"

w/

J-L CJ' Qjy

Supreme Court, U.S.
FILED

No.

SEP i % 2320

In the
Supreme Court of the United States
1

I

NEELAM T. UPPAL,
Petitioner,
v.

NATIONSTAR

J 5

Respondents.

PETITION FOR A WRIT OF CERTIORARI
FROM THE SUPREME COURT AND SECOND DISTRICT COURT OF
APPEAL OF FLORIDA
Case No.: SC2020-983
NEELAM T. UPPAL
Petitioner Pro Se
P.O BOX 1002.
LARGO, FL 33779

OFFICE OF THE CLERK

9

QUESTIONS PRESENTED

1. Whether a litigant is deprived of due process of law when a judge issues an
order to the filing clerk in a pending case that the clerk stamps and signs the
orders and not to allow any hearings on the application sffom the litigant and
issues Stamped orders or illegible signed order which even though denied by the
lower tribunal Judge are upheld by the second District Court of Appeals without
an opinion or give the litigant the ability to challenge the factual basis for such an
order.
2. Whether a judge who issues such an order is abuse of authority and biased.
3. Whether the Florida Appellate court exercised its function to work in the
interest of public and Justice or supported Conspiracy, corruption, Fraud and Civil
theft for the financial or other gains of the fellow attorneys, government, banks or
any wealthy individual, corporations or any other entities rather than upholding
the law in the interest of the public.
4. Whether the Florida courts violated the the Judicial Code and the following
federal laws and rules under the Hobbs Act.
A) Infringement of the 5* and 14 th Amendments of the Petitioner by denying her
a fair evidentiary hearing and taking her home and her equity for her retirement.
5. Whether the Florida courts violated the following federal laws and rules by:
Violating Moratorium by the U.S. President and the Florida Governor by doing
hearings for final judgment on pending Foreclosure cases during COVID-19
pandemic.

PARTIES:
NATIONSTAR,
NEELAMUPPAL

JIDGES OF THE SECONDCA OF FLORIDA
NORTHCUTT,
MORRIS, and
SLEET JJ.,
Table of Contents
Questions Presented

ii

Table of Contents

IV

Table of Authorities vi
PETITION FOR A WRIT OF CERTIORARI

1

u

Opinions Below 2
Jurisdiction

2

Relevant Statutory Provisions and Rules

2

Statement of the Case 7
REASONS WHY THE WRIT
SHOULD BE GRANTED
Conclusion

9

13

Appendix
Appendix A-Supreme Court of Florida Denial of Petition for Mandamus
A-l
Appendix B-Decision of the Supreme Court of Florida
A-3
Appendix C-Order of District Court of Appeal of Florida
A-5
Forged Foreclosure Judgement of the Circuit Court Florida
........................................................ A-l

TABLE OF AUTHORITIES
FEDERAL CASES
Baum v. Blue Moon Ventures, LLC, 513 F.3d 181 (5th. Cir., 2008)

4,5

Cok v. Family Court of Rhode Island, 985 F.2d 32 (1st Cir. 1993)
6 Earle
v. McVeigh, 91 US 503, 23 L Ed 398.
See also Restatements, Judgments ' 4(b). Prather vLoyd, 86 Idaho 45, 382
P2d.
9
False Statements Accountability Act of 1996, PL. 104-292, H.R. 3166, Oct. 11,
1996
In re Green, 669 F.2d 779 (D.C.Cir. 1981)

7

In re Hartford Textile Coip., 681 F.2d 895 (2d Cir. 1982), cert, denied 459 U.S.
1206 (1983)

5

In re Oliver, 682 F.2d 443 (3d Cir. 1982)

5,6,7

In re Powell, 851 F.2d 427 (D.C.Cir. 1988)

5,6,7
6

Martin-Trigona v. Lavien, 737 F.2d 1254 (2d Cir.1984)
10
Moy, 906 F.2d at 470

2,5
Palmore v. Sidoti, 466 U.S. 429 (1984)
People v. Greene, 71 Cal. 100 [16 Pac. 197, 5 Am. St. Rep. 448]
10
Pavilonis v. King, 626 F.2d 1075 (1st Cir.), cert, denied, 449 U.S. 829
5 Reynolds v. Volunteer State Life Ins. Co., Tex.Civ.App., 80
(1980)
S.W.2d 1087, 1092......9
Sabariego v Maverick, 124 US 261, 31 L Ed 430, 8 S Ct 461,
9
Sires v. Gabriel, 748 F.2d 49 (1st Cir. 1984)

7

Tripati v. Beaman, 878 F.2d 351 (10th Cir. 1989)

4

Wood v. Santa Barbara Chamber of Commerce, Inc., 705 F.2d 1515 (9th Cir.
1983)

6
STATE CASES

Jenkins v. State, 385 So. 2d 1356 (Fla. 1980)

2

FEDERAL STATUTES
28U.S.C. § 1257
2
18U.S.C. 1962(b).............................
31 U.S.C.3729...................................
15 U.S.C.1650...................................
15 U.S.C.1601 & 12CFR226...........
Civil Rigts violation Acts 1964, 1968

10
10
10
10

STATE STATUTES
Fla. Const., Art. V, § 3(b)(3)

2

Petitioner, NEELAM T. UPPAL, respectfully petitions this Court for a writ of
common law certiorari to review a final order of parties in a . The order is
attached hereto as exhibit “A” in the appendix to the Petition.
to review
the decision of the Second District Court of Appeals and Supreme Court of
Florida which dismissed her application to review litigant order, thus, deprived
her of due process of law. When a judge issues an order to the filing clerk in a
pending case and the clerk stamps and signs the orders and does not allow any
hearings on the applications from the litigant and issues Stamped orders or

illegible signed order, which even though, denied by the lower tribunal Judge, are
upheld by the second District Court of Appeals without an opinion or give the
litigant the ability to challenge the factual basis for such an order of a lower
tribunal. In support thereof petitioner shows:

Opinions Below
Neither Court below issued an opinion. The Orders of the Circuit Court
and the District Court of Appeal dismissing the appeal are contained in the
Appendix.
Jurisdiction
The jurisdiction of this Court is invoked under 28 U.S .C. § 1257. The
decision of the District Court of Appeal was rendered on July 14, 2020. (A1) Since the decision of the District Court of Appeal was rendered without
opinion,
the Florida Supreme Court did not have jurisdiction to entertain it. See Palmore v.
Sidoti, 466 U.S. 429, 431 (1984) citing Fla. Const., Art. V, § 3(b)(3); Jenkins v.
State, 385 So. 2d 1356 (Fla. 1980)).

Relevant Constitution
Amendment V:
This is a prejudice to the Appellant's Fifth amendment of her constitutional rights
which states
“ no loss of life , liberty or property without due process “
Amendment XIV:
Section 1
“ . . . No state shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any state
deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws.”
Civil Rights violation
Acts of 1964, 1968
Statement of the Case
The underlying action was brought by
Nationstar, to foreclose a mortgage on certain real property located in
Reddington Shores, Florida. On or about June 22, 2016,( A-4) the trial
court issued a final judgment of foreclosure, The petitioner contested that
the bank obtained the Foreclosure Order by fraud in court, by having the
clerk stamp the order that was never ordered by the Judge and later tricked
the Judge into signing it.(App. A-4) The Judge admitted to making this
error and dismissed the sale(App. A-3)
The Bank had further escalated the loan amount by deceptively auctioning
and selling the property to themselves as willful violation of Automatic
Stay of the Bankruptcy. The Bankruptcy Judge returned the property to

the Petitioner. Petitioner had already filed the appeal on the Final ■
Judgement to the second District Court of Appeals.
A notice of appeal was duly filed on or about July 19, 2016, and a related
writ of prohibition, as directed by the Court of Appeal, and filed on or
about August 10, 2016. A ‘Stay’ order was entered by the Appellate Court
On August 16, 2016.
On July 19, 2016, the Clerk of the Circuit Court filed the Record on
Appeal with the Court of Appeal. On September 22, 2017 this case was fully
briefed and on September 25, 2017 request for Oral argument was filed.

Petitioner filed for bankruptcy and on or about January 22, 2015, the Court of
Appeal stayed all proceedings pending any relief from stay issued by the
bankruptcy court. On or about December 9, 2017, the the Petitioner filed an
appeal to US District court for Bankruptcy appellate review. The Jurisdition is of
Bankruptcy Court under 28 USC 1334 (a) and ( e ), so no enforcement action
could be taken.'.
Petitioner timely filed her brief on appeal, but Respondent Nationstar
continued to make applications •
for an extension of time to do so, The Court finally denied Nationstar any further
extensions and directed it to file an Appellee brief on or before October 17, 2017.
On November 1, 2017 the Petitioner filed a ‘Motion to Strike ‘ the Respondent’s
Brief at it was based on False statements and mis-representations of the
documented legal and procedural facts. The Appellate court Judges struck the
Reply of the Petitioner on November 1, 2017 and denied the Motion to strike the
False brief of the Respondent on November 9, 2017
Notwithstanding the pendency of the Bankruptcy with the ‘Stay Order’ in
effect; the bank auctioned her home the foreclosure. Judge vacated the sale on
August 27, 2016 and and declared that she had signed the sale order in error, for
unlawfully transfer Title of the property to the Respondent and returned the
property to the Petitioner. (A-3)

The Appellate Court heard the Appeal on April 13, 2016 and ordered “Affirmed”,
signed by the clerk of the court. The Chief Justice ordered a mandate for the
explanation of the order but that was not done:

REASONS WHY THE WRIT
SHOULD BE GRANTED

The petitioner requests this motion be granted as why would the highest court in
the
Country allow:

1)

Judicial Corruption

I

2)

Fraud on Court

3)

Fraud in court

i

4)
Violation of constitutional and civil rights of the petitioner by allowing '
lower court Judge to enter ex-parte orders for Foreclosure on false and fraudulent
pre-typed orders, clearly in violation of 8th’ and 11 th amendments of Her
Constitutional rights.
5) Civil Rigts violation Act of 1964, 1968
6) Lack of Jurisdiction of the Trial court
1 r'

THE SCHEME

. I
•»

1.

Failing to Hold a Hearing.

2.

Entering ex-parte orders for forelosure

i.

.*n»i •

3.
It is an Abuse of Discretion and authority. By the second DCA to not
give a detailed opinion to hide their corruption and in violation of due process of
the citizens of Florida, such that there is no Record for order to review or there is
as there is no signed order by a Judge.

4. The Appellate Court Abused Its Discretion in
Denying a Continuance.
4.

.

Denial of detailed Opinion , re-hearing or re-cortsideration by the Judge.

5.
The Appellate court abuses its discretion and
authority by entering a decision of ‘Affirmed5.
and allowing foreclosure on a fraudulent fake order entered by fraud in the court.
This was in violation of the Florida constitution Art.
* >
V, section 3 (1) (b)
1 ' '
6. The Florida Supreme court clerk rendered and *
signed orders ( Attached to writ), quoting case-' *f
laws, without any mention of a Judge, The clerks T
• If '
orders constitute unlicensed activity as per Ft
Statute.Thus violating appellant’s due process rights.
t

:'C

f-

.i : v.

*

»1

•

J . .

'!■

5. Honest Services Fraud
See 18 U.S.C § 1346
("For purposes of this chapter, the term ’scheme or artifice
to defraud’ includes a scheme of artifice to deprive another of die intangible right
of honest services."). See McNally v. U.S., 483 U.S. 350, 355 (1987).
6. Fraud on court
Additionally, this is an extreme case of Corruption,
a)

influence of a court member or official

b)

Judicial fraud.

•i!

1

c)
The respondent has done “Unconscionable” schemes to deceive or make
mis-representations through the court system, to obtain Fraudulent Foreclosure
Sale Judgements orders.
s •

■ f

*

1
•t * .t i«
ARGUMENT
The Judgement is for review in the federal Court under False Statements
Accountability Act of1996, P.L. 104-292, H.R. 3166, Oct. 11, 1996
I -

1

» 4

■ i

!

CYNTHIA JOAN NEWTON, JUDGE HON. MARY BE TH KUENZEL, CLERK '< i.

Order- 2
Supreme Court of Florida
WEDNESDAY, JULY 14,2020
;■

CASE NO.: SC2020-983 Lower Tribunal No(s).: 2D18-4772;
522013CA010045XXCICI
NEELAMUPPAL
vs.

NATIONSTAR MORTGAGE, LLC
Petitioner(s) Respondent(s) This case is hereby dismissed. This Court’s
jurisdiction to issue extraordinary writs may not be used to seek review of an
unelaborated decision from a district court of appeal that is issued without opinion
or explanation or that merely cites to an authority that is not a case pending
review in, or reversed or quashed by, this Court. See Foley v. State, 969 So. 2d
283 (Fla. 2007); Persaud v. State, 838 So. 2d 529 (Fla. 2003); Stallworth v.
Moore, 827 So. 2d 974 (Fla. 2002); Grate v. State, 750 So: 2d 625f(Fla. 1999). No
motion for rehearing or reinstatement will be entertained by the Court.

:

John A. Tomasino
Clerk of the Court
A True Copy Test:
td Served:
NANCY M. WALLACE WILLIAM P. HELLER DAVID ARNOLD KARP
RYAN D. O'CONNOR NEELAM UPPAL HON. KEN BURKE, CLERK HON.
MARY BETH KUENZEL,
CLERK
i

A-2

Order-1
IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
SECOND DISTRICT, POST OFFICE BOX 327, LAKELAND, FL 33802-0327
April, 2020CASENO.: 2D18-4772 L.T. No.: 20i3-CA-010045XXCICI
NEELAM UPPAL v. NATIONSTAR MORTGAGE, LLC Appellant /•
Petitioner(s), Appellee / Respondent(s).’ /*
BY ORDER OF THE COURT:
Appellant's request for oral argument is denied.
•
I HEREBY CERTIFY that the foregoing is a true dopy of the original Court order.'
Served: Nancy M. Wallace, Esq. David A. Karp, Esq. Ken Burke, Clerk
William P. Heller, Esq. McCalla;Raymer Pierce, L L’C
Ryan D. O' Connor, Esq. Neelam Uppal

I

• J

s/ Mary Elizabeth Kuenzal
MARY BETH KUENZEL, CLERK
f,
11

)

Af

J

Order-2
IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
SECOND DISTRICT, POST OFFICE BOX 327, LAKELAND, FL 33802-0327
April 08, 2020CASENO.: 2D18-4772 L.T. No.: 2013-CA-010045XXCICI
NEELAM UPPAL v. NATIONSTAR MORTGAGE, L L C Appellant /
Petitioner(s), Appellee / Respondent(s).
BY ORDER OF THE COURT:
With this order, Appellant’s motion for continuance is granted, solely to the extent
that the case is removed from the oral argument docket of April 17, 2018, and will
be decided on the briefs and without oral argument.
I HEREBY CERTIFY that the foregoing is a tme copy of the original court order.
Served: Nancy M. Wallace, Esq. David A. Karp, Esq. Ken Burke, Clerk
William P. Heller, Esq. McCalla Raymer Pierce, L L C
Ryan D. O' Connor, Esq. Neelam Uppal
s/ Mary Elizabeth Kuenzal
MARY BETH KUENZEL, CLERK

Order -3
NOT FINAL UNTIL TIME EXPIRES TO FILE REHEARING MOTION AND,
IF FILED, DETERMINED
IN THE DISTRICT COURT OF APPEAL OF FLORIDA SECOND DISTRICT
NEELAM T. UPPAL, ) ) Appellant, )
) v.)
Case No.
2D18-4772 ) NATIONSTAR MORTGAGE, LLC,) ) Appellee. ) )
Opinion filed April 27, 2018. Appeal from the Circuit Court for Pinellas County ;
Cynthia Newton, Judge. Neelam T. Uppal, pro se. Nancy M. Wallace and Ryan D.
O'Connor of Akerman LLP, Tallahassee; and William P. Heller of Akerman LLP,
Fort Lauderdale; and David A. Karp of Akerman LLP, Tampa for Appellee.
PER CURIAM.
Affirmed.
SILBERMAN, CRENSHAW, and ATKINSON, JJ., Concur.
s/ Mary Elizabeth Kuenzal
MARY BETH KUENZEL, CLERK

Order-4
IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
SECOND DISTRICT, POST OFFICE BOX 327, LAKELAND, FL 33802-0327
August 10, 2018 CASE NO.: 2D16-3310 L.T. No.: 2013-CA-010045XXCICI
NEEL AM UPPAL v. NATIONSTAR MORTGAGE, L L C Appellant /
Petitioner(s), Appellee / Respondents).
BY ORDER OF THE COURT:
Appellant's motion for rehearing and rehearing en banc is denied.
I HEREBY CERTIFY that the foregoing is a true copy of the original court order.
Served: Nancy M. Wallace, Esq. David A. Karp, Esq. Ken Burke, Clerk
William P. Heller, Esq. Me Calla Raymer Pierce, L L C
Ryan D. O' Connor, Esq. Neelam Uppal

s/ Mary Elizabeth Kuenzal
MARY BETH KUENZEL, CLERK

A-3

Order from related Appeal 16-3830
IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
SECOND DISTRICT, POST OFFICE BOX 327, LAKELAND, FL 33802-0327
September 7, 2016 CASE NO.: 2D16-3830 L.T. No. : 2013CA010045XXCICI
Neelam Uppal v. Nationstar Mortgage L L C Appellant / Petitioner^), Appellee /
Respondent(s).
BY ORDER OF THE COURT: This proceeding is initiated as one in prohibition
to review the order denying a motion to disqualify the trial judge. The provision
in the order, which denied a stay, was approved in case 2D16-3310. The
summary judgment order is not final because it only grants a motion for summary
judgment. Petitioner may seek review of that order once judgment is entered.
Petitioner shall submit a petition with appendix within twenty days or risk
dismissal.
I HEREBY CERTIFY that the foregoing is a true copy of the original court order.
Served: Me Calla Raymer Pierce, L L C Neelam Uppal Ken Burke, Clerk

s/ Mary Elizabeth Kuenzal
MARY BETH KUENZEL, CLERK

A-4

(Unable to format)
INTHE CIRCUITCOURTFORTHESIXTH JUDICIALCIRCUITINANDFOR.
PASCO/PINELLASCOUNTY,FLORIDA CIVILDIVIS1 ON
NATIONSTARMORTGAGELLC,
Plaintiff(s,. . RERUCN 13-010045-CI „v.

Additional material
from this filing is
available in the
Clerk's Office.

